TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  A Documented Comprehensive Strategy Is
                     Needed to Focus Efforts on Ensuring
                    Compliance by Tax-Exempt Non-filers



                                          March 31, 2009

                              Reference Number: 2009-10-056




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             March 31, 2009


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – A Documented Comprehensive Strategy Is
                              Needed to Focus Efforts on Ensuring Compliance by
                              Tax-Exempt Non-filers (Audit # 200810021)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) efforts to
 identify and address tax-exempt non-filers. The overall objective of this review was to assess the
 Tax Exempt and Government Entities Division’s efforts to effectively address Return of
 Organization Exempt From Income Tax (Form 990) filing compliance. This audit was
 conducted as part of the Treasury Inspector General for Tax Administration Office of Audit
 Fiscal Year 2008 Annual Audit Plan related to the major management challenge of Tax
 Compliance Initiatives.

 Impact on the Taxpayer
 Tax-exempt organizations, such as charitable organizations, are generally required to file an annual
 information return with the IRS. Although the Exempt Organizations function is performing
 activities to secure delinquent returns, we believe steps could be taken to more fully identify and
 address non-filers. The filing of required tax-exempt organization returns in a timely manner is
 critical to increasing the ability of taxpayers to accurately view the operations of tax-exempt
 organizations. When returns are not filed in a timely manner, taxpayers do not have information
 about the tax-exempt organization to help make their contribution decisions.
                         A Documented Comprehensive Strategy Is Needed
                             to Focus Efforts on Ensuring Compliance
                                    by Tax-Exempt Non-filers



Synopsis
The Exempt Organizations function within the Tax Exempt and Government Entities Division
has taken many actions in its efforts to identify non-filers and obtain delinquent returns. For
example, the Exempt Organizations function created the Compliance Strategies Critical Initiative
Office to coordinate strategic planning, monitor progress of critical initiatives, and analyze the
results of projects. In addition, examinations and other projects that include efforts to identify
non-filers and secure returns are routinely initiated.
While the Exempt Organizations function has taken actions that have resulted in obtaining some
of the delinquent returns, we believe steps could be taken to more fully identify and address
non-filers. To accomplish this, the Exempt Organizations function needs to develop and
document a comprehensive non-filer strategy. This strategy could address several areas where
we believe current and future efforts should be improved, such as:
   •   Creating overall program goals and performance measures related to all non-filer
       efforts – It is difficult to determine the success of current efforts to address non-filing
       because the Exempt Organizations function has not yet developed overall goals and
       performance measures related to non-filers. For example, if the Exempt Organizations
       function was able to determine the voluntary compliance rate for tax-exempt
       organizations, it could set goals to improve the voluntary compliance rate.
   •   Establishing plans for conducting analyses of non-filer project results – Exempt
       Organizations function officials have not analyzed project results for any
       non-filer related trends. For example, trend analyses could be used to develop education
       materials and thus help to reduce noncompliance among tax-exempt organizations if the
       Exempt Organizations function determines tax-exempt organizations were not aware of
       all filing requirements or how to complete a return.
   •   Analyzing collection services to assess how Small Business/Self-Employed Division data
       and resources can best be used to make the non-filer strategy more effective and
       efficient – The Small Business/Self-Employed Division addresses non-filing by making
       telephone calls to tax-exempt organizations that have not responded to mail inquiries
       about potentially delinquent returns. However, over 76 percent (126,585) of the
       166,589 tax-exempt organization cases were closed by shelving or suspending further
       IRS action, which means the returns may still not be filed. The Exempt Organizations
       function could determine the additional effort required to secure additional returns and
       the number of returns secured and decide to devote resources to these cases.
Creating a documented, comprehensive non-filer strategy with goals and measures would put the
Exempt Organizations function in a better position to: 1) evaluate and improve case selection
criteria to ensure that cases with the best potential for affecting the non-filer population are
selected; 2) allocate sufficient resources to work non-filer cases; 3) develop indicators specific to
                                                                                                     2
                             A Documented Comprehensive Strategy Is Needed
                                 to Focus Efforts on Ensuring Compliance
                                        by Tax-Exempt Non-filers


the non-filer inventory; and 4) measure the effectiveness of the non-filer strategy and make
changes as needed.

Recommendations
We recommended that the Director, Exempt Organizations, Tax Exempt and Government
Entities Division, develop a documented, comprehensive non-filer strategy with program goals
and measures, as well as short-term action plans to implement the strategy. In addition, we
recommended that the Director, Exempt Organizations, Tax Exempt and Government Entities
Division, determine how best to use Small Business/Self-Employed Division data and evaluate
its agreement with the Small Business/Self-Employed Division to ensure that it meets the
Exempt Organizations function’s needs.

Response
IRS management offered alternative corrective actions for two of our recommendations and
agreed with two of our recommendations. The Commissioner, Tax Exempt and Government
Entities Division, responded that the Exempt Organizations function would continue working
with the agency-wide Non-filer Executive Advisory Council.1 As part of this effort,
agency-wide non-filer strategic measures were approved in August 2008. The Tax Exempt and
Government Entities Division is reviewing its non-filer initiatives and identifying how they align
with these strategic measures as well as working to develop projects for the future consistent
with the overall strategy. The Non-filer Executive Advisory Council plans to meet and discuss
the action items for impact to the Fiscal Year 2010 Work Plan and beyond.
The Commissioner, Tax Exempt and Government Entities Division, also indicated that changes
implemented by the Pension Protection Act of 20062 will affect currently available data with a
corresponding impact on non-filer initiatives. Consequently, management plans to wait until
after Tax Year 2009 when it expects the data to more accurately reflect true non-filers. Once the
impact of the Pension Protection Act of 2006 is known and more reliable data are available, the
Exempt Organizations function plans to incorporate this information into its ongoing
development of non-filer projects based upon the agency-wide non-filer strategic measures. In
the interim, Exempt Organizations function officials plan to continue educational efforts
concerning the filing requirements. Exempt Organizations function officials also plan to
evaluate the Memorandum of Understanding for collection services with the Small

1
  The Non-filer Executive Advisory Council is the primary coordination body for the IRS on matters related to
non-filing of tax returns across all IRS operating divisions and guides development of agency-wide strategies for
improving resource allocation to reduce noncompliance and the tax gap. It is located organizationally under the
Deputy Commissioner for Services and Enforcement.
2
  Pub. L. 109-280, 120 Stat. 780 (2006).
                                                                                                                    3
                        A Documented Comprehensive Strategy Is Needed
                            to Focus Efforts on Ensuring Compliance
                                   by Tax-Exempt Non-filers


Business/Self-Employed Division to determine whether it meets the needs of the Exempt
Organizations function and whether changes to the Memorandum are needed. Management’s
complete response to the draft report is included as Appendix IV.

Office of Audit Comment
The Commissioner, Tax Exempt and Government Entities Division, provided alternate corrective
actions for our recommendations to develop a documented, comprehensive non-filer strategy
with program goals and measures, as well as short-term action plans to implement the strategy.
In addition, the Commissioner, Tax Exempt and Government Entities Division, stated that the
Exempt Organizations function believes it would be more effective at this time to concentrate on
educational activities than to immediately begin work on our recommendation to determine how
best to use Small Business/Self-Employed Division data.
While educational activities are important, we believe the Exempt Organizations function should
also concentrate on filing compliance by improving current non-filer efforts. For example,
although the Exempt Organizations function is working with the IRS to develop a
comprehensive non-filer strategy, the Exempt Organizations function did not agree to track and
monitor against non-filer goals and measures or make a commitment to conduct analyses on
current non-filer cases to determine reasons for non-filing, impact of delinquent return notices,
and non-filer trends. Without these improvements, the Exempt Organizations function cannot
ensure that current and future efforts are effective in fully addressing noncompliance by
tax-exempt organizations.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                4
                                  A Documented Comprehensive Strategy Is Needed
                                      to Focus Efforts on Ensuring Compliance
                                             by Tax-Exempt Non-filers




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Exempt Organizations Function Has Taken Many Actions to Identify
          Non-filers and Obtain Delinquent Returns ...................................................Page 3
          The Exempt Organizations Function Needs to Develop a Comprehensive
          Non-filer Strategy and Design Effective Performance Measures.................Page 5
                    Recommendations 1 and 2: ....................................................... Page 10

                    Recommendation 3: .................................................................. Page 11

                    Recommendation 4: .................................................................. Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Management’s Response to the Draft Report ......................Page 17
      A Documented Comprehensive Strategy Is Needed
          to Focus Efforts on Ensuring Compliance
                 by Tax-Exempt Non-filers




               Abbreviations

IRS      Internal Revenue Service
                             A Documented Comprehensive Strategy Is Needed
                                 to Focus Efforts on Ensuring Compliance
                                        by Tax-Exempt Non-filers




                                             Background

The Exempt Organizations function of the Tax Exempt and Government Entities Division has
responsibility for ensuring compliance with the Internal Revenue Code sections and regulations that
govern organizations exempt from Federal income tax. Tax-exempt organizations, such as
charitable organizations, are generally required to file an annual information return (Return of
Organization Exempt From Income Tax (Form 990)) with the Internal Revenue Service (IRS).
Form 990 is used by the IRS, State regulators, the public, and policymakers. The IRS uses
Form 990 to assess whether tax-exempt organizations continue to comply with the requirements
for tax-exempt status. State regulators also use the information from Forms 990 to address issues
concerning governance, charitable purpose, and fundraising regulations. Forms 990 collect
much of the information that donors, foundations, the public, and policymakers need to know to
make informed business decisions relating to the tax-exempt sector. The Exempt Organizations
function released a redesigned Form 990 in December 2007 to enhance transparency, promote
compliance, and minimize the burden on tax-exempt organizations. The Exempt Organizations
function believes that the revised Form 990 will result in a realistic picture of an organization
and its operations and provide a basis for comparing the organization to similar organizations.
The number of organizations that are granted tax-exempt status each year is increasing.
According to the Exempt Organizations function, there are approximately 1.8 million tax-exempt
organizations in the United States. During Fiscal Year 2007, the IRS reported receiving
901,000 returns from tax-exempt organizations. The remaining tax-exempt organizations are
either non-filers that are not required to file annual returns,1 non-filers that should be filing but
are not, or non-filers that are no longer filing because they are no longer in existence.
Prior to beginning our review, we found that tax-exempt organizations may not be filing
Forms 990 as required. Information extracted from tax-exempt organizations’ tax accounts for
Tax Years 2004 through 2006 identified Form 990 filing patterns that may be indicative of filing
noncompliance. For example, 3,419 organizations filed Form 990 for Tax Years 2004 and 2006,
but not Tax Year 2005.
To address potential non-filers, the Tax Exempt and Government Entities Division works with
the Modernization and Information Technology Services organization to develop and execute
computer programs that identify tax-exempt organizations that are required to file annual returns,
but have not filed in a timely manner. Any tax-exempt organization that has not filed a

1
  Tax-exempt organizations, such as churches and certain religious organizations, certain State and local
instrumentalities, and other organizations, are exempted from filing annual returns. In addition, prior to
January 2008, tax-exempt organizations reporting annual gross receipts less than $25,000 were not required to file
annual returns.
                                                                                                            Page 1
                            A Documented Comprehensive Strategy Is Needed
                                to Focus Efforts on Ensuring Compliance
                                       by Tax-Exempt Non-filers



Form 990 in a timely manner is sent a notice informing them that their Form 990 was not filed.
The Tax Exempt and Government Entities Division has an agreement with the Wage and
Investment Division to process replies from these notices, as well as notices returned to the IRS
because they could not be delivered. The Tax Exempt and Government Entities Division also
has an agreement with the Small Business/Self-Employed Division to handle collection
activities, such as calling tax-exempt organizations, when notices go unanswered or the required
return is not filed.
The Treasury Inspector General for Tax Administration has conducted two prior reviews of the
implementation of initiatives under the IRS-wide Non-filer Strategy. In November 2005, we
reported that the IRS did not have: 1) a comprehensive non-filer strategy or an executive
charged with overseeing each business division’s non-filer efforts; 2) an organization-wide
tracking system to monitor the progress of each business division’s non-filer strategy action
items; and 3) measurable program goals for bringing non-filers into compliance.2 We performed
a followup review and reported in September 2008 that service-wide outcome and performance
measures had not yet been approved, and there was no systemic method in place to track and
monitor cases worked as part of service-wide non-filer strategic initiatives.3
This audit was conducted while the Exempt Organizations function was considering how to
integrate with the IRS-wide Non-filer Strategy and developing its Fiscal Year 2009 Work Plan.
As a result, this report might not reflect the most current status of the IRS’ efforts to identify and
address tax-exempt non-filers.
This review was performed at the National Headquarters of the Tax Exempt and Government
Entities Division in Washington D.C; the Exempt Organizations function Examination office in
Dallas, Texas; the Exempt Organizations Compliance Unit in Ogden, Utah; the Exempt
Organizations Compliance Strategies and Data Analysis Unit in Washington D.C.; and the
Exempt Organizations Submissions Processing Program Office in Ogden, Utah, during the
period April through September 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




2
  The Internal Revenue Service Needs a Coordinated National Strategy to Better Address an Estimated $30 Billion
Tax Gap Due to Non-filers (Reference Number 2006-30-006, dated November 2005).
3
  Additional Steps Need to Be Completed to Ensure the Success of the Service-wide Non-filer Strategy
(Reference Number 2008-30-165, dated September 22, 2008).
                                                                                                         Page 2
                             A Documented Comprehensive Strategy Is Needed
                                 to Focus Efforts on Ensuring Compliance
                                        by Tax-Exempt Non-filers




                                      Results of Review

The Exempt Organizations function within the Tax Exempt and Government Entities Division
has taken many actions in its efforts to identify non-filers and obtain delinquent returns. For
example, the Exempt Organizations function created the Compliance Strategies Critical Initiative
Office to coordinate strategic planning, monitor progress of critical initiatives, and analyze the
results of projects. In addition, examinations and other projects that include efforts to identify
non-filers and secure returns are routinely initiated.
Although the Exempt Organizations function is
performing activities to secure delinquent returns,        The Exempt Organizations function has
we believe steps could be taken to more fully               taken actions to improve compliance,
identify and address non-filers. To accomplish this,              but has not documented a
                                                              comprehensive non-filer strategy.
the Exempt Organizations function needs to develop
and document a comprehensive non-filer strategy.
Creating a documented, comprehensive non-filer
strategy with goals and measures would put the Exempt Organizations function in a better
position to: 1) evaluate and improve case selection criteria to ensure that cases with the best
potential for affecting the non-filer population are selected; 2) allocate sufficient resources to
work non-filer cases; 3) develop indicators specific to the non-filer inventory; and 4) measure the
effectiveness of the non-filer strategy and make changes as needed.
The filing of required tax-exempt organization returns in a timely manner is critical to increasing
the ability of taxpayers to accurately view the operations of tax-exempt organizations. When
returns are not filed in a timely manner, taxpayers do not have information about the tax-exempt
organization to help make their contribution decisions.

The Exempt Organizations Function Has Taken Many Actions to
Identify Non-filers and Obtain Delinquent Returns
The Exempt Organizations function has conducted many activities that have helped it identify
non-filers and obtain delinquent returns. These activities include:
      •    Implementing the Pension Protection Act of 20064 – The Pension Protection Act of
           2006 requires tax-exempt organizations, which previously were not required to file an
           annual return, to file what is known as an e-Postcard.5 Tax-exempt organizations that do
           not file for 3 consecutive years will have their tax-exempt status revoked automatically.

4
    Pub. L. 109-280, 120 Stat. 780 (2006).
5
    Annual Electronic Filing Requirement for Small Exempt Organizations (Form 990-N).
                                                                                              Page 3
                           A Documented Comprehensive Strategy Is Needed
                               to Focus Efforts on Ensuring Compliance
                                      by Tax-Exempt Non-filers



        Because small tax-exempt organizations with $25,000 or less in annual gross receipts
        were not always required to file before the law was passed, it was difficult for the
        Exempt Organizations function to determine which tax-exempt organizations were not
        filing as required versus those that were not required to file. The new requirement for all
        tax-exempt organizations to file will help the Exempt Organizations function more easily
        identify true non-filers and thus focus its compliance efforts on more productive cases.
    •   Creating a Voluntary Compliance Program – This Program will allow tax-exempt
        organizations that come forward voluntarily to file delinquent returns and pay taxes
        without penalty. The Voluntary Compliance Program is scheduled to be available for use
        by tax-exempt organizations beginning in Fiscal Year 2009.
    •   Conducting examinations – The Exempt Organizations function conducts examinations
        of tax-exempt organizations that can include obtaining any delinquent returns. Primarily,
        Exempt Organizations function audits include determining if the organization is
        organized and operated in accordance with its exempt purpose, if required forms are
        correct and complete, and if any other taxes are owed. If during the examination it is
        determined that a tax-exempt organization has not filed all returns, the Exempt
        Organizations function examiner will attempt to obtain the delinquent return. During
        Fiscal Years 2006 and 2007, examinations resulted in 1,506 delinquent returns secured.6
    •   Compliance checks – A compliance check is a review conducted to determine whether
        an organization is adhering to recordkeeping and information reporting requirements. A
        compliance check is not an examination; it does not directly relate to determining a tax
        liability for any particular period. During Fiscal Years 2006 and 2007, compliance
        checks resulted in 782 delinquent returns being secured.7
    •   Initiating compliance projects – A compliance project is designed to address an
        identified issue, such as noncompliance by a particular type of tax-exempt organization.
        These projects are intended to correct a known area of noncompliance through
        examinations, compliance checks, educational programs, and other activities that may not
        involve the examination of books and records. Those that involve examinations typically
        include returns screened for the presence of a specific issue. For example, the Exempt
        Organizations function currently is sharing tax data with 18 States to identify tax-exempt
        organizations that engaged in gaming activities, such as Bingo, in which annual gross
        receipts normally exceeded $25,000 and Forms 990 were not filed, as required. Based on
        this information, the Exempt Organizations function opened examinations on

6
  Including Form 990, Short Form of Return of Organization Exempt From Income Tax (Form 990-EZ), Return of
Private Foundation (Form 990-PF), Exempt Organization Business Income Tax Return (Form 990-T), Employer’s
Quarterly Federal Tax Return (Form 941), Employer’s Annual Federal Unemployment (FUTA) Tax Return
(Form 940), and other returns.
7
  Including Form 990, Form 990-EZ, Form 990-PF, Form 990-T, Form 941, Form 940, and other returns.
                                                                                                    Page 4
                             A Documented Comprehensive Strategy Is Needed
                                 to Focus Efforts on Ensuring Compliance
                                        by Tax-Exempt Non-filers



         approximately 800 organizations that failed to file Form 990. The Exempt Organizations
         function plans to issue the results of this effort in Fiscal Year 2009.
         While compliance projects normally include a requirement to collect delinquent returns,
         one compliance project completed in November 2004 was geared specifically toward
         reviewing non-filers. As part of the project, the Exempt Organizations function
         determined that almost 88 percent8 of tax-exempt organizations that did not file for tax
         periods ending in late 2001 were actually not required to file or were no longer in
         existence. For non-filers that should have filed, the Exempt Organizations function
         conducted additional work to determine the characteristics of non-filers and implemented
         several recommendations, such as improving the process for mailing letters to tax-exempt
         organizations that have not filed a required return in a timely manner.
In addition to efforts undertaken by the Exempt Organizations function, the Wage and
Investment Division has also taken action to obtain delinquent returns from tax-exempt
organizations. The Wage and Investment Division Entity function is responsible for processing
replies from tax-exempt organizations to notices informing them that their Form 990 was not
filed in a timely manner, as well as notices returned to the IRS because they could not be
delivered. We found that proper controls have been established to process and monitor the
resolution of these inquires and responses received from tax-exempt organizations. An Exempt
Organizations function official receives a report weekly from the Wage and Investment Division
that provides information about the volumes of tax-exempt delinquency notices issued and
received by the Wage and Investment Division Entity function. In addition, mechanisms are in
place to provide solutions in a timely manner if any problems should occur.

The Exempt Organizations Function Needs to Develop a
Comprehensive Non-filer Strategy and Design Effective Performance
Measures
While the Exempt Organizations function has taken actions that have resulted in obtaining some
of the delinquent returns, we believe steps could be taken to more fully identify and address
non-filers. To accomplish this, the Exempt Organizations function needs to develop and
document a comprehensive non-filer strategy.
In August 2006, the Strategic Planning Working Group9 recommended creating an overall
non-filer strategy for the Exempt Organizations function. An Exempt Organizations function


8
  According to IRS documentation, the sample used to determine this statistic was based on a sample with a
confidence level of 95 percent and a margin of error of +/- 5 percent. Due to the age of the data, we did not attempt
to validate the information.
9
  The Strategic Planning Work Group was established in Fiscal Year 2005 and was charged with soliciting,
investigating, and recommending compliance projects for the Exempt Organizations function Work Plan.
                                                                                                              Page 5
                           A Documented Comprehensive Strategy Is Needed
                               to Focus Efforts on Ensuring Compliance
                                      by Tax-Exempt Non-filers



Non-filer Coordinator was appointed in March 2007. However, work on higher priority
compliance projects prevented the Coordinator from focusing on a non-filer strategy.
In May 2008, the Exempt Organizations function’s Program Manager, Compliance Strategies
Critical Initiatives, indicated that a proposal for a non-filer strategy was scheduled to be
submitted to the Exempt Organizations function’s Executive Steering Committee10 in
October 2008 and would include project goals and performance measures. However, a non-filer
strategy was not published in October 2008. The Director, Exempt Organizations, believed it
was premature to create a documented strategy because the IRS-wide non-filer strategic
measures were early in development and it was important that an Exempt Organizations function
non-filer strategy align with the overall IRS-wide strategic measures. In addition, the Director,
Exempt Organizations, stated that the previously mentioned actions being undertaken constituted
the Exempt Organizations function’s current plan for identifying and addressing non-filers.
Also, pending the completion of the agency-wide non-filer strategic measures, the Director did
not want to stifle the creativity of the function in developing new and innovative methods to
pursue non-filers. Lastly, the Exempt Organizations function’s Compliance Strategies Critical
Initiatives Program Manager stated that the function was developing a compliance project that
will focus on specific characteristics of non-filers.
Notwithstanding these reasons for delay, we believe a strategy is needed to guide and improve
current and future efforts to identify and address non-filers. Specific details could be put into
short-term action plans that would provide a detailed description of specific actions needed to
implement the non-filer strategy, target implementation dates, and responsible officials.
Without a documented, comprehensive strategy, the Exempt Organizations function cannot
ensure that current and future efforts are effective in fully addressing noncompliance by
tax-exempt organizations. Such a strategy would assist the Exempt Organizations function in
focusing, monitoring, and measuring its non-filing efforts. The strategy could address several
areas where we believe current and future efforts should be improved to more fully identify and
address non-filers, such as:
     •   Creating overall program goals and performance measures related to all non-filer efforts,
         including the Voluntary Compliance Program, examinations, compliance projects, the
         process of sending notices to tax-exempt organizations that have not filed in a timely
         manner, and the process of calling taxpayers that have not responded to notices.
     •   Establishing plans for conducting analyses of non-filer project results.
     •   Analyzing collection services to assess how Small Business/Self-Employed Division data
         and resources can best be used to make the non-filer strategy more effective and efficient.


10
  The Exempt Organizations function’s Executive Steering Committee is responsible for reviewing and approving
Strategic Planning Working Group Work Plan recommendations.
                                                                                                       Page 6
                             A Documented Comprehensive Strategy Is Needed
                                 to Focus Efforts on Ensuring Compliance
                                        by Tax-Exempt Non-filers



The Exempt Organizations function needs overall program goals and performance
measures for bringing non-filers into compliance. While the Exempt Organizations function
determined that tax-exempt organizations were largely compliant for tax years ending in late
2001, it is difficult to determine the success of current efforts to address non-filing because the
Exempt Organizations function has not yet developed overall goals, as well as performance
measures related to non-filers. For example, data on the number of notices generated are
captured but the Exempt Organizations function has not recently measured how this relates to the
number of delinquent returns secured. Without measures, it will be difficult to determine
progress in addressing non-filers.
The Government Performance and Results Act of 199311 requires that plans have general goals
and objectives, including outcome-related goals and objectives. It also requires a description of
how the goals and objectives will be achieved, skills and technology required, human capital12
information, and other resources required.
Management Action: Exempt Organizations function officials informed us that they were
planning to develop measures in support of the IRS-wide Non-filer Strategy.
The Exempt Organizations function should conduct analyses of project results. According
to Returns Inventory and Classification System13 data provided by the Exempt Organizations
function, the Exempt Organizations function conducted 65 compliance projects that resulted in
1,255 delinquent Form 99014 returns secured and 502 delinquent Form 990-related returns
secured during the period October 1, 2005, through March 31, 2008. However, Exempt
Organizations function officials had not analyzed project results for any non-filer related trends
similar to the analysis completed as part of the compliance project it conducted on Tax Year
2001 data. For example, compliance personnel did not conduct an analysis to determine if
project results identified any consistent reasons for non-filing. Case results were also not
analyzed to determine why non-filers remained noncompliant despite IRS efforts to contact the
organization through mail or telephone contacts to bring the organization into compliance. In
addition, project data were not always collected in a consistent manner to allow trending, and
Exempt Organizations function officials indicated that no one in the Exempt Organizations
function had requested a trend analysis of non-filer information.
Exempt Organizations function officials could analyze the results of compliance projects and
examinations that have resulted in securing delinquent returns to identify problem areas and
trends. Identifying such trends could help the Exempt Organizations function focus its resources


11
   Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
12
   The term “human capital” is used to describe the skills, abilities, and contributions of the people in an agency.
13
   The Returns Inventory and Classification System provides users access to return and filer information related to
the filing and processing of employee plans, exempt organizations, and government entities forms.
14
   Statistics include Form 990, Form 990-EZ, and Form 990-PF.
                                                                                                              Page 7
                              A Documented Comprehensive Strategy Is Needed
                                  to Focus Efforts on Ensuring Compliance
                                         by Tax-Exempt Non-filers



on non-filer problems more effectively. In addition, trend analyses could be used to develop
education materials and thus help to reduce noncompliance among tax-exempt organizations if
the Exempt Organizations function determines tax-exempt organizations were not aware of all
filing requirements or how to complete a return.
The Exempt Organizations function should evaluate the effectiveness of collection services
provided by the Small Business/Self-Employed Division. In addition to Tax Exempt and
Government Entities and Wage and Investment Divisions efforts to address tax-exempt
organizations that do not file, the Small Business/Self-Employed Division also addresses
non-filing by making telephone calls to tax-exempt organizations that have not responded to mail
inquiries about potentially delinquent returns. A Memorandum of Understanding between the
Tax Exempt and Government Entities and Small Business/Self-Employed Divisions sets forth
the delivery of these services, including the delivery of reports that show the number of
Tax Exempt and Government Entities Division delinquent tax returns, number of delinquent
returns secured, and number of cases moved into a holding area for possible future processing.
We identified some useful data in these reports related to non-filing, yet personnel in the Exempt
Organizations function were unaware of these reports. Although Exempt Organizations function
officials did not believe the reports would be useful when we brought them to their attention,
they contacted Small Business/Self-Employed Division officials to explore the feasibility of
acquiring other reports that would be more useful for identifying tax-exempt non-filers. In
addition, Exempt Organizations function officials could not identify who in the Exempt
Organizations function was responsible for determining whether changes to the Memorandum of
Understanding were needed and negotiating those changes with the Small Business/
Self-Employed Division.
One of the reports15 showed that for Fiscal Year 2008, there were 166,589 closed cases involving
tax-exempt organizations that did not file returns. Of these, over 76 percent (126,585) of the
cases were closed by shelving or suspending further IRS action, which means the returns may
still not be filed. A Small Business/Self-Employed Division official stated that it was possible
these cases may come back into worked inventory, but the official added that cases involving
tax-exempt organizations are given low priority because many of the cases have little or no taxes
due. This report also showed that 11,737 (7 percent) of the cases were closed as unable to locate,
while only 4,159 (2.5 percent) returns were secured during Fiscal Year 2008. Figure 1 shows
by category, the number and percentage of tax-exempt cases closed by the Small Business/
Self-Employed Division in Fiscal Year 2008.




15
     Exempt Organizations Report of Delinquent Return Notices and Investigations.
                                                                                           Page 8
                               A Documented Comprehensive Strategy Is Needed
                                   to Focus Efforts on Ensuring Compliance
                                          by Tax-Exempt Non-filers



                 Figure 1: Fiscal Year 2008 Tax-Exempt Case Closures in the
                           Small Business/Self-Employed Division
                                                                                    Percentage of Cases
Reason for Closing Case                       Number of Cases Closed                     Closed16
Shelved or Suspended                                     126,585                         76.0 percent
Tax-Exempt Organization Not                              13,571                           8.1 percent
Liable to File
Unable to Locate Tax-Exempt                              11,737                          7.0 percent
Organization
Return Filed by Tax-Exempt                                8,696                          5.2 percent
Organization
Return Secured by IRS Agent                               4,159                          2.5 percent
Other Closings                                            1,841                          1.1 percent
Source: Exempt Organizations Report of Delinquent Return Notices and Investigations. We did not verify this
information because we did not have a basis for comparison.

The Small Business/Self Employed Division is responsible for the collection of delinquent
returns and taxes owed by all taxpayers, not just those owed by tax-exempt organizations. As a
result, it has to prioritize the collection work among the various taxpayer groups and because
tax-exempt organizations tend to owe less in taxes, tax-exempt organization returns are not a
very high priority. While we understand that difficult decisions have to be made on the priority
of IRS case work, we believe that the Exempt Organizations function needs to determine
whether adequate attention is being provided to cases closed as shelved, suspended, or unable to
locate. By determining the additional effort required to secure additional returns and the number
of returns secured similar to the effort it made concerning Tax Year 2001 tax-exempt
organizations, the Exempt Organizations function could decide to devote resources to these cases
or renegotiate the Memorandum of Understanding with the Small Business/Self-Employed
Division.




16
     Numbers will not add up to 100 percent due to rounding.
                                                                                                        Page 9
                        A Documented Comprehensive Strategy Is Needed
                            to Focus Efforts on Ensuring Compliance
                                   by Tax-Exempt Non-filers



Recommendations
The Director, Exempt Organizations, Tax Exempt and Government Entities Division, should:
Recommendation 1: Develop and document a comprehensive non-filer strategy as a critical
initiative in the Fiscal Year 2010 Exempt Organizations function Work Plan. The strategy
should, at a minimum, include:
   •   Program goals.
   •   Program measures, such as voluntary filing compliance rate, non-filer repeater rate, and
       percent of non-filer returns secured each year.
   •   High-level actions planned to track and monitor the results of non-filer work.
   •   High-level plans for conducting analyses to determine reasons for non-filing, impact of
       delinquent return notices, and non-filer trends.
   •   Linkage to the IRS-wide Non-filer Strategy.
       Management’s Response: The Commissioner, Tax Exempt and Government
       Entities Division, provided alternate corrective actions for this recommendation. The
       Exempt Organizations function plans to continue to work with the agency-wide
       Non-filer Executive Advisory Council, which was created to develop a comprehensive
       non-filer strategy for the IRS. As part of this effort, agency-wide non-filer strategic
       measures were approved in August 2008, and the Council identified how Fiscal
       Year 2009 non-filer actions, including those of the Exempt Organizations function, align
       with the IRS Commissioner’s Strategic Goals, with non-filer initiatives, and with the
       recently approved agency-wide non-filer strategic measures. The Non-filer Executive
       Advisory Council plans to meet and discuss the action items for impact to the Fiscal
       Year 2010 Work Plan and beyond.
Recommendation 2: Develop short-term action plans that include target implementation
dates and responsible officials for actions needed to implement the non-filer strategy.
       Management’s Response: The Commissioner, Tax Exempt and Government
       Entities Division, provided alternate corrective actions for this recommendation. The
       Commissioner, Tax Exempt and Government Entities Division, responded that the
       Fiscal Year 2009 Work Plan contains a Form 990 Non-filer Initiative focused on
       organizations with reported high dollar gross receipts that file Form 990 or Form 990-PF
       intermittently and another initiative for organizations that did not file Form 990, but did
       file either a Form 990-T with substantial gross receipts from unrelated business income
       or a Contributions of Motor Vehicles, Boats, and Airplanes (Form 1098-C) reporting high
       donations. The Work Plan includes target implementation dates and identifies
       responsible officials.

                                                                                          Page 10
                        A Documented Comprehensive Strategy Is Needed
                            to Focus Efforts on Ensuring Compliance
                                   by Tax-Exempt Non-filers



       Office of Audit Comment: The Commissioner, Tax Exempt and Government Entities
       Division, provided alternate corrective actions for our recommendations to develop a
       documented, comprehensive non-filer strategy with program goals and measures, as well
       as short-term action plans to implement the strategy. Although the Exempt Organizations
       function is working with the IRS to develop a comprehensive non-filer strategy, the
       Exempt Organizations function did not agree to track and monitor against non-filer goals
       and measures or make a commitment to conduct analyses on current non-filer cases to
       determine reasons for non-filing, impact of delinquent return notices, and non-filer
       trends. Without these improvements, the Exempt Organizations function cannot ensure
       that current and future efforts are effective in fully addressing noncompliance by
       tax-exempt organizations.
Recommendation 3: Determine how Small Business/Self-Employed Division data can best
be used to make the Exempt Organizations function non-filer strategy more effective and
efficient. For example, a sample of cases that have been shelved or suspended could be worked
by the Exempt Organizations function to determine if additional effort is warranted to obtain
delinquent returns.
       Management’s Response: IRS management agreed with the recommendation and
       will evaluate the status of non-filers, making use of Small Business/Self-Employed
       Division and other data demonstrating the impact of the Pension Protection Act of 2006,
       when the data become available. The Exempt Organizations function indicated that the
       Small Business/Self-Employed Division data include organizations that are not true
       non-filers, either because they have low receipts or have gone out of business. Under the
       Pension Protection Act of 2006, tax-exempt organizations (other than certain excepted
       entities such as churches) that do not file a Form 990, Form 990-EZ, or Form 990-N for
       3 consecutive years will automatically lose their tax-exempt status in 2010. Therefore,
       the Exempt Organizations function believes it should continue its educational efforts
       concerning the filing requirements and evaluate the status of non-filers when the impact
       of the Pension Protection Act of 2006 is clear.
       Office of Audit Comment: The Commissioner, Tax Exempt and Government Entities
       Division, replied that the Exempt Organizations function believes it would be more
       effective at this time to concentrate on educational activities than to immediately begin
       work on our recommendation. While educational activities are important, we believe the
       Exempt Organizations function should also concentrate on filing compliance by
       improving current non-filer efforts. For example, Exempt Organizations function
       officials stated that reports being received from the Small Business/Self-Employed
       Division were not useful and they were exploring the feasibility of acquiring other reports
       that were more useful. Work in this area could be completed now so that reports will be
       useful by the time the Pension Protection Act of 2006 begins impacting data. In addition,
       work could be started now to determine whether additional effort is warranted to obtain

                                                                                          Page 11
                       A Documented Comprehensive Strategy Is Needed
                           to Focus Efforts on Ensuring Compliance
                                  by Tax-Exempt Non-filers



       delinquent returns from a large pool of potential tax-exempt non-filer cases that are
       currently not being worked. While waiting for data to be impacted by the Pension
       Protection Act of 2006, the Exempt Organizations function could influence future
       non-filer efforts and learn how to reduce current noncompliance by determining reasons
       for non-filing, impact of delinquent return notices, and non-filer trends as it secures
       delinquent returns.
Recommendation 4: Evaluate the Memorandum of Understanding for collection services
with the Small Business/Self-Employed Division to ensure that it meets the needs of the Exempt
Organizations function and periodically consider whether changes to the Memorandum are
needed.
       Management’s Response: IRS management agreed with the recommendation.
       Exempt Organizations function officials plan to evaluate the Memorandum of
       Understanding for collection services with the Small Business/Self-Employed Division to
       determine whether it meets the needs of the Exempt Organizations function and whether
       changes to the Memorandum are needed.




                                                                                        Page 12
                        A Documented Comprehensive Strategy Is Needed
                            to Focus Efforts on Ensuring Compliance
                                   by Tax-Exempt Non-filers



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Tax Exempt and Government Entities
Division’s efforts to effectively address Return of Organization Exempt From Income Tax (Form
990) filing compliance. To accomplish our objective, we:
I.     Assessed actions taken by the Exempt Organizations function to develop a non-filer
       strategy.
       A. Interviewed Exempt Organizations function officials to determine the status of efforts
          to develop a non-filer strategy and identify a national Non-filer Coordinator.
       B. Assessed the progress made by the Exempt Organizations function in developing a
          non-filer strategy.
       C. Determined how the planned Voluntary Compliance Program for tax-exempt
          organizations may fit into a non-filer strategy.
       D. Determined how the implementation of the e-Postcard will fit into the non-filer
          strategy.
II.    Assessed actions taken to systemically identify potential non-filers.
       A. Assessed the notice process for weaknesses.
       B. Interviewed Exempt Organizations function and Modernization and Information
          Technology Services organization personnel responsible for the notice process to
          clarify our understanding of the process and the impact of any proposed changes.
III.   Evaluated Tax Exempt and Government Entities Division oversight activities of other
       IRS organizations responsible for addressing Form 990 compliance.
       A. Assessed how the Tax Exempt and Government Entities Division provides oversight
          to Wage and Investment Division efforts to process tax-exempt organization notices
          and responses.
       B. Assessed how the Tax Exempt and Government Entities Division provides oversight
          to Small Business/Self-Employed Division efforts related to tax-exempt
          organizations.




                                                                                        Page 13
                        A Documented Comprehensive Strategy Is Needed
                            to Focus Efforts on Ensuring Compliance
                                   by Tax-Exempt Non-filers



IV.    Assessed Exempt Organizations function efforts to address non-filer issues using
       compliance projects.
       A. Determined whether the Exempt Organizations function had performed an analysis of
          the results of the non-filer components of all compliance projects for trends.
       B. Determined the status of Exempt Organizations function plans to initiate a non-filer
          compliance project.

Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Exempt Organizations function’s policies,
procedures, and practices for identifying and addressing Form 990 non-filers. We reviewed
these controls by interviewing management and analyzing applicable information and
documents.




                                                                                          Page 14
                      A Documented Comprehensive Strategy Is Needed
                          to Focus Efforts on Ensuring Compliance
                                 by Tax-Exempt Non-filers



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
Kenneth C. Forbes, Lead Auditor
Michael A. McGovern, Auditor
Carol Rowland, Auditor




                                                                                  Page 15
                      A Documented Comprehensive Strategy Is Needed
                          to Focus Efforts on Ensuring Compliance
                                 by Tax-Exempt Non-filers



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Director, Communications and Liaison, Small Business/Self-Employed Division
   SE:S:CLD:PSP:GTL
   Director, Communications and Liaison, Tax Exempt and Government Entities Division
   SE:T:CL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 16
        A Documented Comprehensive Strategy Is Needed
            to Focus Efforts on Ensuring Compliance
                   by Tax-Exempt Non-filers



                                                Appendix IV

Management’s Response to the Draft Report




                                                        Page 17
A Documented Comprehensive Strategy Is Needed
    to Focus Efforts on Ensuring Compliance
           by Tax-Exempt Non-filers




                                                Page 18
A Documented Comprehensive Strategy Is Needed
    to Focus Efforts on Ensuring Compliance
           by Tax-Exempt Non-filers




                                                Page 19
A Documented Comprehensive Strategy Is Needed
    to Focus Efforts on Ensuring Compliance
           by Tax-Exempt Non-filers




                                                Page 20
A Documented Comprehensive Strategy Is Needed
    to Focus Efforts on Ensuring Compliance
           by Tax-Exempt Non-filers




                                                Page 21
A Documented Comprehensive Strategy Is Needed
    to Focus Efforts on Ensuring Compliance
           by Tax-Exempt Non-filers




                                                Page 22
